<html>
<title> - OPEN FORUM ON HUMAN RIGHTS AND THE RULE OF LAW IN CHINA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





        OPEN FORUM ON HUMAN RIGHTS AND THE RULE OF LAW IN CHINA

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


79-302              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             NANCY PELOSI, California
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Ira Wolf, Staff Director, Congressional-
  Executive Commission on China..................................     1
Ding, Ignatius Y., Chairman, Silicon Valley for Democracy in 
  China..........................................................     2
Martin, G. Eugene, consultant, former Deputy Chief of Mission, 
  U.S. Embassy, Beijing, China...................................     3
Zhang, Erping, President, Falun Gong International Committee for 
  Human Rights...................................................     5
Purohit, Raj, Lawyers Committee on Human Rights..................     7
Hou, Wenzhuo, student, Harvard University Law School.............    10

                                APPENDIX
                          Prepared Statements

Martin, G. Eugene................................................    24
Zhang, Erping....................................................    25
Purohit, Raj.....................................................    27
Hou, Wenzhuo.....................................................    29

                       Submission for the Record

Prepared statement of Wenhe Lu and Ciping Huang, board members of 
  the Independent Federation of Chinese Students and Scholars in 
  the United States..............................................    32

 
        OPEN FORUM ON HUMAN RIGHTS AND THE RULE OF LAW IN CHINA

                              ----------                              


                         MONDAY, MARCH 4, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room SD-215, Dirksen Senate Office Building, Mr. Ira 
Wolf (staff director of the Commission) presiding.
    Also present: Mr. John Foarde, Deputy Staff Director; Ms. 
Holly Vineyard, representing Grant Aldonas, U.S. Department of 
Commerce; Mr. Michael Castellano, Office of Representative 
Sander Levin; Ms. Jennifer Goedke, Office of Representative 
Marcy Kaptur; Ms. Sharon Payt, Office of Senator Sam Brownback; 
Ms. Kate Friedrich, representing Paula Dobriansky, State 
Department; and Ms. Susan O'Sullivan, representing Lorne 
Craner, State Department.

 OPENING STATEMENT OF IRA WOLF, STAFF DIRECTOR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Mr. Wolf. Good afternoon. My name is Ira Wolf. I am the 
staff director of the Congressional-Executive Commission on 
China. This is John Foarde, the deputy staff director.
    I would like to welcome everyone here today to the first 
public issues roundtable being held by the Congressional-
Executive Commission on China.
    We have been instructed by Senator Baucus, the chairman, 
and Congressman Bereuter, the co-chairman, to hold a series of 
staff-led public issues roundtables to go into greater detail 
on areas of concern to the Commission.
    We are starting this series with today's open forum, where 
we are allowing anyone to present his or her views on human 
rights and rule of law in China--personal views or 
organizational views. We hope to do this several times a year.
    Once we have completed this open forum, we will begin 
roundtables on specific issues. There is a list on the back 
table that has the schedule for these continuing roundtables.
    The next session will be on March 18 on labor rights. Also, 
the list in the back of the room has the schedule for full 
commission hearings. The next one will be April 11 on human 
rights and legal reform.
    Let me briefly describe the format today. We will have each 
presenter speak for 5 minutes, and then we will have questions 
from the staff of the members.
    The lights behind me will go off. The yellow light will go 
off in 4 minutes, and in 5 minutes the red light and the bell 
will go off. So, you have 5 minutes to present your oral 
statement, and we will be happy to take any written statement 
or documents for the record.
    We also are happy to accept any written documents from 
people who are not here to testify today--also for the record.
    This is the first time we are doing this, so it is a 
learning experience for all of us, including the staff members 
for the commissioners.
    Let us start with Mr. Ding, chairman of Silicon Valley for 
Democracy in China. Welcome.

  STATEMENT OF IGNATIUS Y. DING, CHAIRMAN, SILICON VALLEY FOR 
                       DEMOCRACY IN CHINA

    Mr. Ding. I am from Silicon Valley. That is on the edge of 
the ocean. Anyway, I just came back from China around February 
18, exactly 2 weeks ago. So I have some recent experience 
traveling to China, not only in cities, but we purposely, a 
group of us, went out and traveled into rural areas, several 
hundred miles away from the city.
    We just wanted to get some sense of what is going on, 
because 90 percent of the Chinese population, as you know, are 
in the rural areas, mostly in the farming community.
    Anyway, the primary purpose for my personal reason for 
being there, was attending an International Law Conference. 
That was the first surprise, when I heard that the discussion 
in Shanghai and human rights came up. They were heated 
discussions, talking about between the laws between the KMT and 
the Communist Party. It was kind of interesting discussion that 
I did not expect.
    But immediately, there is no surprise, the media got chased 
out of the room half-way through. So, that was my first taste 
of the use of the Security Bureau in China.
    Anyway, the media followed us when they found out we were 
going to rural areas. So, there are two national teams from 
northern China that followed us into the village. Actually, in 
the slides you can see the pictures. They followed us even 
during Chinese New Year. They followed us all the way through 
in the 2-week duration there.
    So I have to emphasize that there is a major difference in 
the press censorship in a city and in the rural area. It is 
much more open. So, I want to make that point.
    The other thing I noticed, because I do not have much time, 
but I spent a little bit of time, since I am from Silicon 
Valley, I cannot help it, but looking into why we stopped 
receiving e-mails from China.
    So the first thing I did in Shanghai, was to get into an 
Internet cafe and start looking around. What I found 
interesting enough, is they have high-speed access and very 
low-speed reception. It is pretty evident that the censorship 
is on all the time.
    When I went to the rural area, the Internet cafe was closed 
during the New Year, so they did not get a chance to check it 
out.
    But when I got back, I found an article that is in a 
package. It turned out, the American corporations are helping 
the Chinese Government censor their e-mail down to the packets, 
is the terminology.
    In other words, every little bit coming through the sisko 
box in IBM, all the corporate giants from America, to make a 
buck, they cannot resist temptation and they have developed the 
software and the hardware to help the Chinese Government to 
censor everything coming through the wire.
    So that is one thing I think the Commission should take 
note of and look into, how to convince these people not to do 
this any more.
    But, again, coming back to the media, what I find is, the 
liberal attitude, especially when I attended several town hall 
meetings in the village, I find it is very refreshing and 
hopeful.
    So I believe one of the things to address the Chinese human 
rights issue is not to beat them up, but encourage the county-
to-county chamber of commerce at the lower level, to develop a 
grassroots relationship. I believe that will really liberate 
and help improve the human rights conditions there.
    For example, we have a Falun Gong representative here. I 
saw all kinds of propaganda in their city halls, but nobody 
paid any attention in the counties. In the cities, of course, 
if you mention that word, you are in the next wagon going to 
you know where.
    Anyway, so I believe it is important for the Commission to 
look into this matter and improve or develop some kind of 
mechanism to adopt a county by U.S. counties, or some kind of 
college program that encourages students to go there and teach 
English, learn Chinese, learn the culture, to do the grassroot 
exchanges. That will, I think, have a huge push in the human 
rights area.
    That is my observation. I will entertain any questions, 
because I spent quite a bit of time, the entire time in the 
rural area, and I asked a lot of questions. I would be more 
than happy to answer questions. I want to just conclude here.
    Mr. Wolf. Thanks a lot, Mr. Ding.
    Next is Eugene Martin, a consultant and former Deputy Chief 
of Mission at the U.S. Embassy in Beijing.
    Mr. Martin.

STATEMENT OF G. EUGENE MARTIN, CONSULTANT, FORMER DEPUTY CHIEF 
            OF MISSION, U.S. EMBASSY, BEIJING, CHINA

    Mr. Martin. Thank you. It is a pleasure to be here.
    After having the opportunity to attend the hearing on 
February 7, I was very impressed by the comments of the 
witnesses at that time. Going home and thinking about it, I 
thought one of the things that would be worth mentioning in 
relationship to the development of rule of law and democracy in 
China, is the need for China to move toward a civil society.
    As it looks toward representative government under a rule 
of law, I think the development of a civil society will be a 
critical building block. Allowing citizens to form and join 
groups which foster common goals of society while furthering 
their own interests will advance human rights and democracy by 
providing a shock-absorbing cushion between the government and 
private citizens.
    Civil society can be defined, in part, as institutions 
formed by citizens individually or collective which are apart 
from state or party apparatus. The institutions' goals can be 
to serve the goals or the interests of their own members, or as 
part of furthering their societal goals as a whole.
    These institutions could be oriented toward social goals, 
services, religious pursuits, academic, professional, or 
various other business goals. Individuals would have a sense of 
belonging to a group or body with shared ideals and objectives, 
perhaps reducing alienation and dissension.
    The problem in China is that the government sees such 
organizations as potential rival power centers, competing 
ideological or philosophical bodies, and socially destabilizing 
agents.
    China has a long history of secret societies and movements 
which became either criminal or political, and, on occasion, 
succeeded in overthrowing the dynasties. One need only look at 
the Taiping Rebellion in the 19th century, or Sun Yat-sen's 
Tongmenghui movement at the latter part of the 19th century.
    Given the increased availability of information and the 
speed of modern communication, organizations have enhanced 
means of connecting their members throughout the country.
    This is in part why the Chinese Government has clamped down 
so hard on a number of such groups, whether they are Falun 
Gong, independent labor unions or religious bodies, insisting 
on state/party control over all organizations.
    Nongovernmental civil society organizations, however, are 
an important component in the nation's effort to provide its 
citizens with the means to prosper, meet society's needs, and 
advance national interests.
    During the first 30 years of the People's Republic, the 
Party insisted on controlling and dictating all activity, 
whether economic, political, or social. Individuals had little, 
if any, private space in which to pursue their own ideas and 
interests.
    Under the economic reforms initiated by Deng Xiaoping, 
China unleashed Chinese citizens' innate abilities and 
enthusiasm. The citizens, therefore, gained greater control 
over their private lives.
    As they got more choices in their lives, the Chinese had a 
growing desire to protect and advance their own individual and 
collective interests in association with other like-minded 
people.
    Professional, cultural, religious, and social groupings 
advocate development of a transparent and consistent rule of 
law, as well as greater ``political space'' to express opinions 
and ideas. These goals often parallel those advocated by the 
government and the party; occasionally, they diverge.
    In most cases, those that differ from the state/party are 
not antithetical or threatening. Rather, they propose a 
different approach to problems based upon grassroots 
perspectives.
    Such diversity can only strengthen and stabilize China's 
society by giving citizens peaceful, lawful means to express 
their opinions and to work to advance them. While some groups 
undoubtedly will oppose state or party policies, transparency, 
diversity, and public discussion usually will result in 
moderate policies toward common societal goals.
    Civil society is taking root in China. As economic reforms 
develop, the government finds it is unable to provide all of 
its citizens' needs and expectations. The State Owned 
Enterprise [SOE] crisis, floating population, rural recession, 
urban dislocations cause problems the government cannot resolve 
on its own.
    A number of nongovernmental organizations [NGOs] have been 
allowed, even encouraged, by the government, albeit under close 
state or party supervision and control. These deal with 
environment, natural disaster, and poverty challenges.
    Other nongovernmental groups have stepped in, mostly at the 
local level, to provide social services when the government 
cannot for financial or structural reasons. These include 
volunteer support in orphanages or elder homes, counseling to 
migrants and unemployed SOE workers, medical assistance in 
rural or migrant communities, and tutorial help to students.
    These services are desperately needed by the society in 
transition from a planned to a market economy and can be 
accomplished through private organizations. By allowing such 
groups to fill the void, the government is already beginning to 
foster a civil society. Much more needs to be done.
    In conclusion, the development of a broader civil society 
in China is an integral part of the advancement of the rule of 
law and human rights.
    Thank you.
    [The prepared statement of Mr. Martin appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Next is Mr. Erping Zhang, president of the Falun Gong 
International Committee for Human Rights.

STATEMENT OF ERPING ZHANG, PRESIDENT, FALUN GONG INTERNATIONAL 
                   COMMITTEE FOR HUMAN RIGHTS

    Mr. Zhang. Thank you very much. Thank you for giving us the 
opportunity to speak on the plight of the Falun Gong 
practitioners in China.
    As you may recall, the U.S. House and Senate unanimously 
passed concurrent resolutions in November 1999 condemning the 
People's Republic of China for its brutal persecution of Falun 
Gong practitioners.
    Some victims have also been invited to testify their 
stories before Congress and we are grateful for the support 
that the U.S. Congress has shown us during this difficult time.
    We are, however, sad to report that in the year 2002, the 
repression has only worsened. At last account, it has been 
confirmed that 375 practitioners have died in police custody 
since Falun Gong was banned in China in July 1999, while the 
unofficial report is over 1,600 deaths.
    The Chinese vice premier, Li Lanqing, said in a speed that 
in just 3 short months, between July and October 1999, over 
35,000 people who appealed to the Beijing regime were arrested.
    According to human rights groups and media reports, at 
least 100,000 people have been sent to labor camps without a 
trial; some 600 people have been handed extended jail sentences 
up to 18 years in jail; more than 1,000 have been sent to 
mental institutions where they were given forced injections and 
drugs.
    One harrowing case is that of Ms. Zhao Xin, a 32-year-old 
lecturer in economics at a Beijing business university. After 
she was rounded up in a park for doing her exercises with her 
friends, police beat her so viciously that they crushed three 
of the vertebrae in her spine.
    She was paralyzed from the neck down and her vocal chords 
were damaged during surgery so she could no longer talk. Later, 
she died, and the police tried to interrupt her funeral 
procession organized by her university colleagues and students.
    We can imagine the despair of her family. All of their 
efforts to appeal to the courts or to get some explanation from 
the authorities about how their daughter could have been 
treated this way have been summarily dismissed.
    For every case that we know about, there are many, many 
more. There are cases of discrimination and harassment that, 
while less severe than torture, have nonetheless wreaked havoc 
with people's lives. Thousands upon thousands of practitioners 
have lost their jobs, schools, pensions, and even their homes.
    Falun Gong is not a Chinese issue, but an international 
matter. Recently, groups of western Falun Gong practitioners 
throughout the world went to the Tiananmen Square in Beijing to 
peacefully appeal to the Chinese regime to stop the killing and 
lifting the ban. Over 30 of them were Americans.
    For their peaceful appeal, they were harshly treated and 
physically abused before being deported. Many had their 
personal belongings taken away by police, such as credit cards, 
cash, cameras, laptops, and so on.
    It is hard to imagine that this apolitical meditation is 
peacefully practiced in over 50 countries, and yet is brutally 
suppressed in its own homeland.
    While China is stepping up its domestic efforts in 
persecuting Falun Gong practitioners, its propaganda and 
harassment against Falun Gong have also arrived overseas, 
especially here in America.
    The Wall Street Journal reported, on February 21, 2002: 
``The approach, made variously by letter, phone call or 
personal visit from a Chinese official based at China's 
Washington Embassy or one of its numerous consulates, tends to 
combine gross disinformation with scare tactics, and in some 
cases, slyly implied diplomatic and commercial pressure.''
    Typical is the experience of Santee, California, a city of 
58,000 on the outskirts of San Diego County. A little over a 
year ago, Mayor Randy Voepel received a letter from the newly 
arrived Chinese consul general in Los Angeles, asking him to 
not support Falun Gong and saying that it could ``jeopardize 
your social stability.''
    Also, noting that China would ``like to establish and 
develop friendly relations with your city,'' and implying this 
would require complying with China's wishes. This letter went 
on to urge that ``no recognition and support in any form should 
be given to the Falun Gong,'' and urged banning them from 
registration as any kind of official organization.
    The mayor replied, ``Your letter personally chilled me to 
my bones. I was shocked that a Communist Nation would go to 
this amount of trouble to suppress what is routinely accepted 
in this country .  .  . I have the greatest respect for the 
Chinese people in your country and everywhere in the world, but 
I must be honest in my concern for the suppression of human 
rights by your government as evidenced by your request.'' Then 
this issued a mayoral proclamation commending the Falun Gong.
    Such blunt assault on the civil liberty of U.S. citizens 
and intervention on American internal affairs are in direct 
violation of U.S. and international laws.
    Last month, He Yafei, deputy chief of Mission of the 
Chinese Embassy visited Mr. Rocky Anderson, the mayor of Salt 
Lake City, who issued a proclamation last year honoring Falun 
Gong. In a ``security briefing'' for Mr. Andersen, he attempted 
to label Falun Gong as a ``terrorist group.''
    Yet, the Wall Street Journal reported: ``Mr. Anderson let 
the demonstration go ahead, on February 7. It was so peaceful, 
says a mayoral spokesman, that the sole problem with the Falun 
Gong was that ``they walked very slow.''
    We appeal to this Congressional-Executive Commission on 
China to investigate and stop such harassment by the Chinese 
Government on United States soil.
    We are hoping to work with the Commission to put in place 
concrete and specific measures to, first, pressure the Beijing 
government to release those detained and imprisoned Falun Gong 
practitioners; second, help those imprisoned Falun Gong 
practitioners seeking medical treatment abroad, due to 
maltreatment and harsh conditions in prison; third, hold 
hearings for victims of Falun Gong practitioners so that this 
largest modern-day atrocity in China is highlighted; fourth, 
identify those Chinese officials who have engaged in human 
rights abuses and ban them from entering the United States; 
fifth, use every opportunity and tool this Commission has to 
call for an end of Beijing's suppression of Falun Gong.
    Thank you very much for your consideration.
    [The prepared statement of Mr. Zhang appears in the 
appendix.]
    Mr. Wolf. Thank you.
    Next is Mr. Raj Purohit with the Lawyers Committee on Human 
Rights.

  STATEMENT OF RAJ PUROHIT, LAWYERS COMMITTEE ON HUMAN RIGHTS

    Mr. Purohit. The Lawyers Committee is an independent 
nongovernment human rights organization based in New York and 
Washington, DC. We aim to hold governments accountable to 
international standards of human rights and work to develop 
stronger models of corporate accountability in the global 
marketplace.
    The Lawyers Committee considers that human rights 
conditions in China continue to be an issue of deep concern. 
Over the past year, China has secured a prominent position in 
the international arena, symbolized by its admission to the WTO 
[World Trade Organization] as a successful bid to host the 2008 
Olympics and the recent visit of President Bush.
    However, this has not been accompanied by a parallel 
improvement in human rights. Instead, government statements 
about upholding the rule of law have frequently veiled harsh 
political repression.
    This is most poignantly illustrated by the Strike Hard 
campaign which resulted in scores of executions after 
procedural and substantive abuses of domestic criminal law in 
China.
    Moreover, in the aftermath of the September 11 tragedy in 
New York and Washington, DC and Virginia, antiterrorist 
rhetoric has been misused to legitimize harsh crackdowns and 
illegitimate censorship of all forms of media, including the 
Internet in China.
    An abundance of NGO reports, as well as the annual 
evaluations of China's human rights practices by the State 
Department's Bureau of Democracy Human Rights and Labor, rate 
these and other violations of the most fundamental human 
rights.
    They described crackdowns on dissidents, cases of arbitrary 
arrest and detention of suspects, torture, forced prison labor, 
and abusive labor conditions.
    Freedom of expression continues to be restricted and voices 
that have endeavored to draw attention to pressing issues of 
national and global concern are violently silenced.
    The Lawyers Committee has welcomed positive developments in 
the Chinese legal system over the past few decades. However, 
continuing violations illustrate that a strong legislative 
framework cannot, by itself, secure the rule of law.
    It is necessary to enforce this legal framework and 
practice. To that end, China needs to build a strong, 
independent legal profession.
    I would like to focus briefly on the persecution of lawyers 
in China. I would just like to sort of highlight a concern 
about the continuing persecution, threats, and harassment 
suffered by lawyers who confront common injustices in China.
    In 1998, we addressed this and related issues in our report 
``Lawyers in China: Obstacles to Independence in the Defense of 
Rights.'' It is a copy I shall make available to the Commission 
and its members.
    Unfortunately, many of the problems described in that 
report continue to be matters of concern. The report includes 
analysis of the 1996 Lawyers Law, which in general terms 
regulates the legal profession. The Lawyers Law was inspired 
by, yet does not wholly encompass, the U.N. Basic Principles of 
the Role on Lawyers from 1990.
    Nevertheless, the law and the basic principle share their 
intention to protect lawyers from physical or other forms of 
abuse, and from interference when carrying out their 
responsibilities in accordance with the law.
    However, despite the strong legal framework, there are 
reoccurring reports of intimidation and threats targeted at 
legal practitioners.
    One such case, that of Mr. Litai, illustrates this problem. 
Since 1996, Mr. Litai has helped workers in the Shenzhen area 
to obtain their rights in legal battles against local 
government authorities, foreign investors, and company owners 
in a series of cases that have drawn public attention. Over the 
years, he had represented more than 800 factory workers in 
labor disputes and struggles for compensation for grave work 
injuries.
    Many of these cases involved legal action against the Labor 
Bureau or the social security department. In August last year, 
he represented 56 women in a South Korean-owned wig factory in 
Shenzhen who had been the victim of illegal body searches. The 
company chose to settle the case out of court.
    On December 19, 2001, the Longgang District Bureau of 
Justice in Shenzhen ordered Mr. Zhou to close his legal 
practice. The order, which apparently contravenes both 
international law and domestic regulations, seems to be an 
illegitimate retaliation for the negative attention that Mr. 
Zhou's successful litigation practice has drawn to the Shenzhen 
region.
    As noted above, the Chinese Lawyers Law expressly protects 
lawyers from such ungrounded interference and intimidation. 
Such interference is also outlawed in international human 
rights standards.
    Specifically, the Lawyers Law states in its Article 12 that 
``legal practice shall not be subject to geographical 
limitation.'' This means that a lawyer licensed in one region 
of China may practice in another without obstruction from the 
local authorities.
    Mr. Zhou, who is in possession of a Chongqing license, is 
entitled to practice anywhere in China. The District Bureau has 
no power to obstruct Mr. Zhou's practice of law.
    He has, in fact, filed suit against the District Bureau of 
Justice with the Longgang District People's Court to contest 
the legitimacy of the order. In this respect, it should be 
noted that the Shenzhen local Bureau of Justice has previously 
attempted to confiscate his license shortly after he started 
his practice in 1997. At that time the bureau returned the 
license to Mr. Zhou after he initiated legal proceedings.
    The Lawyers Committee believes that the case of Mr. Zhou 
deserves particular consideration in light of China's recent 
ascension to the WTO and the obligations that membership in 
this organization entails with respect to the elimination of 
barriers to trade.
    It should be considered that the continuing threats and 
harassment threats against Mr. Zhou, and in particular possible 
withdrawal of his license to practice, are wholly inconsistent 
with China's obligations under the WTO and set a most 
disturbing precedent.
    Mr. Zhou's activities show that the Chinese people 
increasingly turn to the legal system for protection. This 
commendable development needs to be protected and stimulated.
    Working toward the development of the rule of law, it is of 
key importance that China continues to build and enforce its 
legal system to guarantee a sustainable protection of basic 
human rights, as well as the interests of foreign investors
    The legal system will only be as strong as the 
professionals who work within it. China should adhere to its 
own laws and to international standards, upholding the 
independence of lawyers and their protection from persecution.
    I have just a few brief recommendations here. We believe 
that it is important to recognize the educative, guiding role 
that can be played by foreign governments, human rights groups, 
law schools, bar associations, and other international actors 
in the development of law in China.
    Underlining the position of China as a prominent member of 
the international community, efforts should be made to ensure 
that the continued involvement of these foreign actors.
    The Chinese Government should fully comply with the 
provisions of the U.N. Basic Principles on the Role of Lawyers, 
and to revise those aspects of Chinese law that restrict the 
ability of lawyers to freely represent their clients and to 
organize independent bar associations.
    Lawyers should be free to carry out their professional 
duties without official interference, restrictions, threats, or 
intimidation.
    Particular assistance should be provided to the training of 
lawyers, both in China and abroad. Training programs should be 
designed to fit with China's particular conditions and needs. 
The exchange and sharing of relevant information should be 
stimulated. Assistance should be also provided to China's law 
schools for the design of courses and teaching methods.
    Bar associations and the Chinese Ministry of Justice should 
be engaged to create mechanisms that ensure the adequate 
protection of legal practitioners.
    At the same time, to promote high professional standards, 
these institutions should be encouraged to publicize and 
facilitate the rights of clients to bring malpractice suits, in 
the belief that this will encourage lawyers to seriously 
consider their professional responsibilities.
    Assistance should be provided in the creation of a legal 
aid system, by providing know-how and financial support where 
appropriate.
    Assistance should be provided to train and sensitive the 
relevant branches of government to the importance of the 
independent role of the lawyer within the legal system.
    These are just a few observations in this particular area. 
I look forward to working with the members of the Commission 
and the staff. Thank you.
    [The prepared statement of Mr. Purohit appears in the 
appendix.]
    Mr. Wolf. Thanks very much.
    Next is Ms. Wenzhuo Hou, who is a visiting fellow at 
Harvard Law School. Please go ahead.

     STATEMENT OF WENZHUO HOU, STUDENT, HARVARD LAW SCHOOL

    Ms. Hou. Thank you very much.
    Ladies and gentlemen, I would like to highlight here today 
about a kind of human rights violation which affects the 
largest number of Chinese people, and yet has hardly gained 
much attention from the international community or the Chinese 
Government.
    That is, the human rights violation against peasants and 
rural migrant workers, who number over 1 billion people and 
more than 70 percent of the Chinese population.
    The Chinese household registration system, that is, the 
hukou system, created in the 1950s established a rural/urban 
dichotomy system. Since then, Chinese citizens are classified 
into two categories: those who are urban hukou versus those who 
are rural hukou.
    These two kinds of hukou status have made Chinese citizens 
live in two worlds, the urban first world and the rural third 
world.
    I have recently been undertaking research, making 
comparisons between the Chinese hukou system versus the 
apartheid regime in South Africa. There are astonishing 
similarities in these two countries.
    Population registration laws in both countries, that is, 
the Population Registration Act in South Africa and the 
Household Registration Regulation in China, are the 
cornerstones of a discriminatory system where one higher 
category group dominated the rest.
    While in South Africa black and colored people were 
deprived or confined in their working rights, in China, 
according to election law, the peasants only have one-fourth or 
one-eighth of the representative rights that an urban citizen 
has.
    The largest social group in China, the peasants have no 
national or regional representative associations, which 
directly contributed to their marginalized political situation.
    The peasants are also deprived of equal opportunities to 
get access to housing, primary education, higher education, 
employment, medical care, social security, and so on.
    Black people in South Africa are regularly checked for 
their pass, while in China rural migrants are checked for their 
temporary residential card, work permits, and often are 
arbitrarily sent to custody and repatriation centers.
    Even worse than what is experienced by black people, the 
Chinese peasants have minimal rights to land. Rights of 
property and products are often traded upon. They not only have 
to pay this proportional heavy tax to the state and collective, 
but also are subject to numerous arbitrary fines and fees.
    We know that rural women in China have the highest suicide 
rate in the world. As we know, school children in Jiangsee were 
killed when they had to produce fireworks for a living.
    In Shanghai Province, teenaged boys were tricked into 
working in gold mines where they were treated as slaves, or 
even worse. Such horrific stories happen all over China very 
often.
    In a broader sense, all Chinese peasants and rural migrants 
are all virtual slaves of the state. The rights and properties 
are often abused by various governments at will, their 
liberties are often deprived arbitrarily. In industrial areas, 
the monetary compensation they get is even less than half of an 
urban hukou person, if at all.
    If we truly mean to talk about human rights today, the 
human rights of peasants and migrants are too huge to ignore. 
If we do not want to see the impoverished and desperate 
peasants start another violent peasant revolution, as has 
happened so many times in Chinese history, we must address the 
human rights injustices for peasants now.
    If we acknowledge this discrimination against peasants is 
comprehensive, multifaceted, and institutionalized, we should 
realize that it is not enough to address the problem in the 
classical human rights approach.
    It calls for a more systematic approach. Therefore, I 
advocate that rights of peasants and rural migrants be singled 
out as a major category of human rights and seriously studied, 
as we do for women's rights, children's rights, or labor 
rights, and so on.
    Therefore, I call upon the international community to 
examine and monitor the human rights of peasants and migrant 
workers in China.
    I recommend the following actions should be taken. First, 
to adopt a categorical, identical discrimination approach in 
monitoring human rights situations of peasants. That is, 
discrimination based on descent, the hukou.
    Second, to single out discrimination and human rights 
violations against peasants and migrants while documenting 
human rights in China, such as in the U.S. State Department 
reports.
    Third, to facilitate the reform of rural government, which 
has become increasingly rent-seeking and exploitative in 
nature.
    Fourth, to review the impact of the WTO on Chinese 
peasants. Noting the WTO's potential devastating effects on 
peasants' livelihood, which may unleash social unrest from 
rural China to the rest, it is of particular immediacy and 
importance to address the human rights concerns of peasants.
    To bring the human rights of peasants into the forefront of 
the human rights discussion would greatly empower the peasants 
and migrants. It will make this human rights argument more 
relevant to the most powerless people in China who are willing 
to participate.
    I believe attention to human rights of peasants and 
migrants would give tremendous support to the democracy 
movement in China.
    Thank you very much.
    [The prepared statement of Ms. Hou appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Is Mr. Wenhe Lu here, by any chance?
    [No response]
    [The prepared statement of Mr. Lu appears in the appendix.]
    All right. That concludes the presentations from those who 
came today. We appreciate it very much.
    We are going to go around and we will use the normal 5-
minute rule. We will do this in the order that everyone came 
today. If you choose not to ask questions, that is also all 
right, too.
    So let me start. This question is for both Mr. Martin and 
Mr. Purohit on legal aid. In light of the problems that you 
mentioned, for example, with Mr. Zhou, the lawyer that we have 
all read about so much, what is the possible impact, over the 
short term, of increased assistance to legal aid projects? I 
have the same question for you, Mr. Martin, in terms of the 
efforts to build civil society.
    Mr. Purohit. I think when one considers, be it the legal 
aid groups, the civil society groups, bar associations, et 
cetera, I think there is a very general notion.
    We are of the belief at the Lawyers Committee that we have 
got to have this combination, in a country like China, of 
external pressures, at the same time sort of working with those 
internally within the system who are trying to effectuate some 
change. If you like, that is sort of the moderates within the 
system.
    So be it the individual is trying to set up legal aid 
clinics, or bar associations, or for that matter chamber of 
commerce groups, etc., I think whatever can be done, both at 
the Commission level and through private partners that the 
Commission and the United States Government-at-large is working 
with, whatever can be done to get those groups engaged in a 
sort of constructed and supported way in China, I think, is 
useful.
    It is sort of supporting those who need the support. The 
external pressure, I think, is going to be there, both from the 
government and nongovernment, but sort of getting this balance 
right is what it is all about.
    Mr. Martin. I think there are a lot of things that could be 
done. The proviso, of course, is any time we have an 
international organization that tries to go in and work with a 
domestic organization in China, the government becomes 
suspicious of what the goals and intentions of the foreign 
organization are.
    When I was in China with the consulate in Guangzhou, Rotary 
International was very interested in trying to open up 
opportunities to have Rotary in China. I think things like 
Rotary, and business societies, and professional groups would 
be very, very useful.
    I know that there are a number of professional groups that 
are starting their own organizations in China. I hope that at 
some point it will be possible for them to have an association 
or working relationship with other organizations such as 
Kiwanis, or Rotary, or what have you, overseas. There is a 
tremendous amount of service that could be provided by such 
organizations.
    Mr. Wolf. Mr. Ding, I wonder if you have a comment.
    Mr. Ding. It just so happens that I went to China to attend 
the International Law Conference, which was attended by over 
100 legal scholars and lawyers, and this particular subject 
came up.
    In fact, what they indicated was, instead of outside 
interference or pressure, they would welcome the opportunity if 
there is any kind of assistance to provide grassroots education 
and training programs, short-term training programs, let them 
organize it themselves, and they can promulgate this throughout 
the country.
    This talk is like a foreign type of thing at a conference. 
The leading advocate of this is one of the retired prosecutors 
that has returned from Hague, who was a prosecutor who 
represented China in the International Court.
    So, I believe with the legal scholars inside China to back 
this effort, if somehow we can provide assistance to provide 
like sabbatical programs and actually train people inside China 
and let them provide legal aid program, I think that that is 
doable.
    Mr. Wolf. Ms. Hou, the concerns you raise, are they 
addressed at all by providing legal assistance to individuals 
at the grassroots?
    Ms. Hou. I still would like to highlight what is 
experienced in rural China. I happened to talk to some women's 
groups who are working for promoting the anti-family violence 
movement. We should be concerned. The legal construction in 
rural China is really very underdeveloped, far more 
underdeveloped than urban China. The legal system in rural 
China is very corrupted.
    So I think the focus, therefore, should be really put more 
on those very underdeveloped areas. I do not know exactly what 
kind of program can be undertaken, but if we are serious in 
that there can be something done to promote a turning and 
capacity building of a rural legal justice system.
    Mr. Wolf. Thank you.
    Next is John Foarde.
    Mr. Foarde. Thank you.
    Mr. Ding, let me ask you if you have seen this. You were 
probably in China when this came about. But about 10 days ago, 
there was an article in the Weekly Standard magazine.
    Mr. Ding. Yes. That is in the package.
    Mr. Foarde. It is in the package?
    Mr. Ding. Yes.
    Mr. Foarde. All right. And it reflects some of the themes 
that you talked about, particularly the role of U.S. businesses 
in providing the software, the hardware, and the backbone 
sometimes for the efforts by public security authorities to 
control e-mail and other things. Could you elaborate a little?
    Mr. Ding. That is almost half true. I believe the firewall 
is building toward the outside. All the guns are pointed 
outside. But I have also seen very devastating, very ugly 
Internet access there. If you go to an Internet cafe, it is 
very, very popular there for the young people, sad to say, and 
it is full of pornography.
    So, the censorship is actually not working inside. So they 
basically censor the IP addresses. So anything coming from 
outside is censored. They are not doing anything inside. So, it 
is corrupt inside, but yet they are not doing anything at all. 
The reason I looked at it, is because we stopped receiving e-
mails and I knew something was wrong.
    It is because of the four-tier suffix that they key on 
certain things that come in from the United States It becomes 
automatically a candidate. They cannot possibly decensor 
everything.
    So I think that's what they build, and it is blocking the 
e-mail coming from outside. Not just e-mails, also the Web site 
traffic. I think that this, by and large, is what the American 
corporations should take responsibility for.
    Mr. Foarde. When you say ``censor,'' exactly what are they 
doing? Are they not permitting the mail to get through, or are 
they taking out words or whole sections of text? What is 
happening in censorship?
    Mr. Ding. They just block it. You cannot see it.
    Mr. Foarde. So you do not see it.
    Mr. Ding. You do not see it at all. It says, ``Time Out.'' 
That is all. They use a different word, but it is essentially 
just a time out. You cannot see it. You ran out of time. You 
cannot access it. They have high-speed access, but things are 
so slow. It is very evident that something is behind it, 
checking it.
    Mr. Foarde. Let me switch just a little bit, on the same 
topic. You said you visited a number of rural areas and 
villages. How much connectivity is there really in villages and 
how much would people use the Internet if they could?
    Mr. Ding. It is available there. But the problem is, they 
have the end-user access, but there is not enough ISP. The 
service largely depends on the cities. So that is why one of 
the things I addressed was the rural areas, the rights of the 
rural people. It is county-to-county.
    We need to try to push this commerce relationship into 
services down to that level, and then they will become 
independent from the big cities. Then I think they will have 
the access more freely.
    Mr. Foarde. Is it fair to say, from what your observations 
were during your trip, that the closer you get to a big city 
the better the connectivity is in a rural area?
    Mr. Ding. Yes. But also less freedom. Actually, the cops 
are all over the place. If you go to a rural area, and you can 
see the picture that I included on the CD-ROM, the press just 
goes freely anywhere they want to. But, in a city, they are 
basically handicapped. They were locked up in a hotel and they 
could not do anything.
    Mr. Foarde. Thank you.
    Mr. Wolf. Next is Holly Vineyard from the Department of 
Commerce.
    Ms. Vineyard. I have a question, directed primarily to Mr. 
Martin, but others should feel free to comment.
    From your time that you spent in China, could you comment 
perhaps on the types of technical assistance that we provided 
for commercial rule of law development? What kinds of those are 
most helpful for fostering civil society and improving human 
rights?
    Mr. Martin. There are training programs by a number of the 
law schools in the United States with various law schools at 
universities in China that are providing them both, in terms of 
case studies, as well as examples. In addition, a lot of 
Chinese, of course, come to the United States and study here 
and then go back.
    There are also training courses for defense lawyers and 
also for prosecutors and judges to try to help them in terms of 
regularizing their work and making sure that they follow the 
rules and the laws that are on the books in China.
    Ms. Hou. I have a comment. I think, regarding the legal 
development, that, yes, the commercial law is developing very 
fast. What is not paid enough attention to, is cut-purse 
ethics. When you ask whether McDonald's or another 
international business or domestic business pays enough 
attention to cut-purse ethics? No.
    I mean, if you look on the Internet, there was a case, not 
so much paid attention to in the English media, that was where 
McDonald's was paying far less to local, domestic Chinese 
laborers.
    It was about 2 yen an hour to domestic laborers to domestic 
Chinese workers in McDonald's, which is about 200 yen something 
a month.
    They are selling things at McDonald's at the same price as 
in the United States, while the workers there do not even have 
enough to eat for the whole day after working 6 or 7 hours. 
Corporations only care about whether they are doing good 
business. They do not care about labor rights.
    There is not enough enforcement about whether corporations 
observe and respect the ethics. It is because the Chinese 
Government does not care so much about that, nor does 
international business care about it. So, that, I wanted to 
say.
    Mr. Zhang. If you do not mind, I would like to clarify a 
few things on the side in terms of rule of law. In China, it is 
different. We do not have a rule of law, we have rule by the 
law.
    The law is the policy of the Chinese Communist Party [CCP]. 
We have a constitution on paper, which probably quite as 
comprehensive as it is here. They do not follow it. They follow 
the central policy.
    For example, in the case of Falun Gong, the Central 
Communist Party Committee has 16 offices. The 16 offices are 
set up for the Communist Party Leader, Nochow Jomin, and headed 
by the Vice Premier, Lelon Ching.
    They have all the authority to arrest, to put people behind 
bars, to kill them, to do anything without going through 
trials, without having lawyers present in court, without 
following any legal procedures. So, I just wanted to clarify 
that so people can concentrate on that.
    Mr. Wolf. Next is Susan O'Sullivan from the State 
Department Bureau of Democracy, Human Rights, and Labor.
    Ms. O'Sullivan. I have a question for Zhang Erping. I have 
heard some reports that prospective employees are required to 
sign pledges that they will not join the Falun Gong, and that 
employees already in American companies are asked to sign these 
pledges. I am wondering if you have any information on that 
subject, particularly in foreign-owned businesses in China.
    Mr. Zhang. Yes. Thank you. We have seen, in Time magazine 
that the foreign companies are required to comply with the 
Chinese Government policy to not hire anyone who believes or 
practices Falun Gong.
    But so far, none of the foreign companies have confessed 
that they have worked with the Chinese Government in this 
regard, except for the Danish Brewery Company. Obviously, they 
have fired a person for practicing Falun Gong, who has just 
been released after 2 years in a labor camp.
    We are also trying to collect evidence to work with our 
government on the details, but I am sure that all of the 
foreign companies based in China have been pressured to comply 
with this procedure.
    Ms. O'Sullivan. Thank you.
    Mr. Wolf. Next Kate Friedrich from the Office of the Under 
Secretary for Global Affairs at the State Department.
    Ms. Friedrich. Yes. I have a question for Mr. Ding. When 
you talked about your 14-day trip to cities in rural areas of 
China, which specific rural areas were you in? This is sort of 
a two-part question. Did you find that, when you talked about 
more freedom, there was less censorship in those areas where 
the Internet was available?
    Mr. Ding. I was only in Jiangshu and Shojon Provinces in 
southern China.
    Ms. Friedrich. And the censorship?
    Mr. Ding. I did not really see that much censorship. I do 
not know whether it was just shut down during the New Year 
period or whether they just have more freedom in the rural 
areas. I can see actually people being followed in the city. I 
was surprised I was let in at all. Actually, I got in faster 
than anybody else, and I suspect there was a reason behind 
that. But I did not want to figure it out, I just went in. I 
went in there and, as soon as I got out of the city, I found 
that there is no interference whatsoever.
    I did not check the Internet, like I said. All the Internet 
cafes were shut down so I did not get a chance. But I could see 
that people talked more freely, act more freely. Actually, it 
is the reverse compared with 2 years ago. I heard in the city 
you have more income, have more things available.
    Now, everything is available in the rural area, but the 
living standard is much lower. But in the city, people do not 
make enough. So when we say people do not make enough to eat at 
McDonald's, even if they work there, that is in the city. You 
do not find McDonald's in the rural areas, but I think people 
find plenty of food there. So, it is sort of a reversed fortune 
at the moment.
    Ms. Friedrich. Thank you.
    Mr. Wolf. Next is Jennifer Goedke from the Office of 
Congresswoman Marcy Kaptur.
    Ms. Goedke. This question is for Mr. Martin and anyone else 
who would like to join in. As we see more United States- and 
foreign-owned businesses moving into China, how can those 
businesses then help to foster some of the groups that you 
spoke about? I know that we have heard stories of, people who 
work at the McDonald's cannot even afford to eat at the 
McDonald's.
    So how then would the United States or other foreign-owned 
businesses actually go beyond meeting minimum needs to 
encouraging some of the broader needs, whether it be organizing 
the labor or even just smaller social groups?
    Mr. Martin. I think one example I would give is in some of 
the large, say, Nike factories, shoe factories, or electronics 
factories in Guangdong Province, where you have say, 3,000 
young women and a couple of hundred men who are working there. 
These are people who have left home in the rural areas for the 
first time, are away from family and community structures.
    I think some companies--not all--have been quite helpful in 
trying to provide counseling, providing recreation facilities, 
helping the workers structure themselves so that they can take 
care of their own social problems, providing counseling and 
other things. I think this is a very good way that they can do 
it.
    We have also found that, in most foreign-invested 
companies, that the working conditions are much better than 
they are in many of the, shall we say, other Asian-invested 
companies, or even in the Chinese state companies. So people 
prefer to work there.
    I am shocked to hear about McDonald's pay scales. But, in 
the McDonald's I have been in China, they seem to be quite 
happy working there.
    Now, I have not been aware of their wages and salaries, but 
I think that there are a number of ways in which the foreign-
invested companies do help them in terms of both their working 
conditions, but also working in terms of the environment, in 
terms of work rights, and so forth.
    Mr. Zhang. I would like to respond to Susan's question 
regarding the foreign companies. We do have a few Americans who 
were arrested in China in the year 2000-2001 and were detained 
in a detention center. They were making hairbrushes and making 
McDonald's toys, and making other things for export during 
their 30-day and 2-week detention in southern China, in 
Shenzhen City.
    So, we do not know which foreign company exactly is doing 
that, but the inmates told the Americans who were making 
hairbrushes there from 9 o'clock until 10 o'clock in the 
evening that these were for export to the United States.
    Ms. Goedke. I have one more question, and anyone can feel 
free to answer. As we are talking about human rights, another 
item might be a right to health care. With this huge spread of 
either AIDS or other infectious diseases, how would either a 
legal framework, which would allow people more access to health 
care, or through some of the multinational corporations that 
are there, can anyone speak to access to health care as well?
    Ms. Hou. I may have a small comment, although I am not an 
expert. A friend of mine recently undertook a trip, a law 
student at Harvard, to several provinces in China to research 
on the AIDS issue.
    I think, in fact, you can see that the AIDS problem in 
China is less because of the health or availability of health 
care. Yes, it is available, but the more fundamental reasons 
are the political corruption and control of information.
    For example, this patent law. The patent law, like for 
Microsoft software, there are lots of copied things. You can 
buy them easily in Beijing. But the patent rights of AIDS 
medicines were strictly enforced. Why?
    In his words, the patents of AIDS medicines was too 
sensitive. Well, they are risking people's lives to protect 
those patents, while they do not really take care of patents of 
whatever other products.
    So I think we have to address, really, the fundamental 
political problem and legal problem. If foreign businesses 
would like or are willing to help, what they have done in South 
Africa is they have offered lots of medicine there for a lower 
price. Certainly, they should pressure the government. They 
should not adopt a rigid approach regarding the maximum price.
    I believe in transparency. The problem is very important 
and it is really because of this control of information. It has 
caused the problem. It is a lot more serious than it is.
    Ms. Goedke. Thank you.
    Mr. Ding. Actually, there is something I have seen. The 
funny thing is, if you go to China, anything is for a bargain, 
even if you go to a restaurant. I had an experience where we 
sat down, were about to order a banquet. We would make a deal. 
We would actually get a discount, then we order.
    But there is one monopoly in China. You go to a pharmacy. 
Down to the single penny, there is no bargain. It is very 
expensive stuff. There is a total monopoly. I do not know who 
is behind it, but this is absolutely true.
    I know some people cannot afford to buy those things. Of 
course, if we use U.S. dollars, we think it is cheap, but 
obviously the average person cannot afford it.
    Mr. Martin. Could I just add one word? I think you have put 
your finger on a real serious problem, particularly in rural 
areas, is the lack of medical access.
    There have been a few encouraging news stories about, 
particularly in Henan, where you have got a tremendous problem 
of HIV because of the polluted blood supply. I think that a 
couple of people have actually won legal cases on that, and 
that is quite encouraging. Obviously there is a lot more that 
needs to be done.
    Mr. Wolf. Thanks.
    Next is Mike Castellano from the office of Congressman 
Levin.
    Mr. Castellano. Thank you. This is for Mr. Martin and for 
whoever else would like to answer.
    We have heard a lot with China's WTO accession of how 
western companies, with increased investment and with the 
umbrella of the WTO, can help influence positively the 
development of China's legal system and the rule of law in 
China.
    I guess some of the things you all have commented on today 
make me worry, though, about the reverse of that process, which 
is China's legal regime and political regime impacting the 
western companies there and either encouraging them to not 
employ members of the Falun Gong, or encouraging them to engage 
in censorship if they are an Internet company.
    How can the western governments best position themselves to 
ensure that the process is going the right way? That is, it is 
the values from the west coming in rather than sort of the 
reverse of that with the Chinese impacting the western 
companies' business practices there?
    Mr. Martin. I think my initial comment would be that, by 
providing western management techniques and working conditions, 
that they are showing that there are different ways of doing 
things, to which most Chinese workers have not had much 
exposure.
    They have clean working conditions, they have regular 
hours, they are listened to, they are allowed to make decisions 
on their own rather than just following orders. I think this is 
spreading throughout the society far beyond just the factories.
    I think the American chambers of commerce in China are 
helpful in terms of getting the individual companies to be able 
to work together collectively to resist some of these 
government pressures, and also to encourage an opening up and a 
broader approach to worker rights, and also to working 
conditions in general.
    There are many ways in which I think the example of 
American companies is spreading, because Chinese companies now 
have to compete, in many cases, with western companies. I think 
they are finding that it is hard to get workers, good workers, 
to work for them. Everybody wants to work for the foreign-
invested company.
    So, I think these things are a gradual process. I think 
that, generally, the American companies are trying to do well. 
You have got to distinguish, of course, between those who are 
contract companies and others.
    Shoe manufacturers are often Korean- or Taiwan-invested, 
owned, and run rather than American themselves. But I think, 
even there, most companies have a code of conduct that they 
take very seriously.
    Ms. Hou. I have a comment about the WTO issue. I think we 
should not assume that the WTO necessarily would bring a rule 
of law into China and a free market would necessarily do good 
to China. There are lots of signs. It has actually contributed 
to worsening labor situations, their disrespect of labor 
rights.
    What is more important, we should give more support to the 
domestic and local initiative of self-governing, self-
organizing to support the trade union effort and to support 
those areas which traditionally are neglected.
    For example, the trade union of migrant workers. There is 
no such organization like this free trade union of migrant 
workers. No. There is no farmers union in China, no peasants 
union. There is no such thing. We should really give lots of 
attention on those traditionally neglected areas. I have talked 
with a few farmers' organizations. At Harvard, there are some 
students doing something like that.
    If, let us say, we promote Chinese peasants to learn 
something from an American farmers union, collective 
bargaining, and so on, we can therefore promote their 
bargaining power in politics.
    If we promote the capacity building of the rural migrant 
workers, farmers, and so on, there will be a more powerful 
construction of those organizations. That will put business 
more on the alert to labor rights. That is a more fundamental 
approach to address the issue.
    I believe, yes, the United States can do something to 
promote this kind of international exchange and to help mold 
capacity building in those neglected areas.
    Mr. Zhang. If you do not mind, I will add a few points. I 
think probably everyone knows that the Falun Gong is not 
against the WTO in China. I think it is probably innocent to 
project that China will automatically behave itself in human 
rights with its entry into the WTO.
    As the saying goes, it is very difficult to train a tiger 
to become a vegetarian. The business community has been 
pressured by the government to comply with the suppressive 
policy on the Falun Gong practitioners.
    A report produced by the U.S. State Department, and also by 
the U.S. Commission on International Religious Freedom, the 
suppression and human rights abuses have worsened, not 
improved.
    I think the United States needs to stand very firmly on its 
moral grounds, as it did in the case of the former Soviet 
Union. We should trade with principles and we should engage 
with the people, not just the dictators who abuse the human 
rights of their citizens. Thanks.
    Mr. Ding. I think I want to make a distinction, because we 
are not talking about one problem here, we are talking about 
more than one problem. So we probably will not develop one 
single solution, a panacea, to address them all.
    But to go back to the basics, we will be able to help with 
basic legal training, helping them organize themselves. Also, 
give them the background to understand how they can work 
solutions out by cultural exchanges down to the lower levels.
    My own son went to China to actually teach English by using 
just daily life, what we do, how we live, and how we fight 
battles with each other. That sort of thing actually 
enlightened them. They did not realize that there are rights in 
their own life. They can develop that.
    As far as Internet problems, I think if you look at 
bribery, for example, why did American companies stop bribing 
officials? Sanaka Sony took the bribes from Lockheed Space 
Missiles Corporation back in the 1970s. It is because the 
Americans passed laws. So, I think on that side, legislation 
will help.
    But for workers rights and the rural area, those kinds of 
things, I think we need to really look at the very basic 
things. The law is not going to do anything. We need to empower 
the people, going through very basic stuff.
    Mr. Wolf. Thank you.
    Next is Sharon Payt with Senator Brownback.
    Ms. Payt. Thank you, Ira.
    We understand that there has been a rise, a dramatic 
increase in religious persecution in the last couple of years. 
I am sorry I missed your presentation, Erping, but we have 
talked many times.
    Senator Brownback is, of course, a supporter of China and 
PNTR [Permanent Normal Trade Relations], but he is also very 
concerned about this most recent wave of religious persecution.
    I do not know whether you mentioned Pastor Gungshang Ling, 
who was set for execution along with his niece on January 5 and 
a group of people intervened. The execution was temporarily 
stayed, but he still sits in prison. I know there are many 
others also facing this specter.
    Just on a rather lighter note, a couple of Kansans, 2 weeks 
ago, were even arrested as Falun Gong practitioners. They had 
not even gotten into Tiananmen Square. They were actually on 
their way and they were picked up and held. They do not have 
the same fate as many people in China do to practice their 
faith freely, quietly, with dignity.
    How do we address this and how can we help expand or 
promote the expansion of religious freedom in China, Erping or 
Raj?
    Mr. Zhang. I think, Sharon, you raise a very important 
issue. Like I said earlier, I think the United States is at its 
best when it is acting according to a firm moral ground, as we 
did with the former Soviet Union.
    We should not give in under any pressure, for trade or 
whatever, to the demands of the Chinese Government. We trade 
with principle in every engagement with China, not just with a 
dictator. We engage with the people, we empower the people, 
like Mr. Ding said.
    The other thing that is alarming from my statement earlier, 
is that Chinese Government harassment has come over to the 
United States, as reported by the Wall Street Journal, by the 
Washington Post, by the Chicago Tribune. I will file these in 
the congressional record. It is alarming.
    They are coming over here with propaganda, harassing, 
intimidating local government and business communities not to 
support U.S. citizens living in this country, freely practicing 
whatever faith they want.
    So, this is very scary and, thus, something that I hope 
that this Commission will investigate and stop this kind of 
harassment. Obviously, it is very important that, when we 
engage with China, we have to raise this issue, that religious 
freedom is very basic to civil society, to the rule of law, and 
to the prosperity of China. It is for peace, not just for the 
Chinese people, but also people worldwide.
    Ms. Payt. And Erping, just to clarify, you are referring to 
several incidents involving municipalities, cities, counties 
that had put forth resolutions adopted condemning religious 
persecution activities by the government, and then later 
retracted them because of pressure.
    Mr. Zhang. That is right. Yes. Also, there were local 
governments who, because of the diplomatic and commercial 
threats and pressure, felt frightened.
    So, they had to rescind their proclamations, issued for the 
local citizens who practice Falun Gong, condemning the 
persecution. The majority of the people stand up to the 
pressure. They say, here, on U.S. soil you cannot do that, 
intimidate us here. I hope that our government will speak out 
on this important issue.
    Ms. Payt. I know there are many Members of Congress who 
have talked about it among themselves and who are very 
concerned about it. We have had many phone calls, ourselves.
    Mr. Zhang. Thank you very much.
    Mr. Purohit. I think just to sort of add on that point, a 
lot of the talk here today has been about sort of constructed 
engagement and working with bar associations, civil society 
groups, and the chambers of commerce. All of that is crucial, 
through the WTO and trade.
    All of those sorts of engagements, particularly at the 
private sector level, are going to happen. I think, as all of 
you know as well as we do, that the other dimension is going to 
be the external pressure now that we are done with some of 
these trade debates, getting that pressure put on the Chinese 
Government, raising these issues in a high-profile manner.
    When the Commission is in a position where it starts to go 
over that, taking the commissioners over and actually raising 
the profile of human rights, labor, religious freedoms in 
China, all of those--and I think we are preaching to people who 
already know this stuff--things are going to be so important 
because we have got to have this balance between engagement, 
but also pressure and flagging at a very, very high level the 
problems.
    I think, be it China or any other number of countries 
across the world where groups such as ours are concerned, we 
look to opportunities, for example, in presidential visits, for 
certain magic words to be raised, a particular case or a 
particular problem raised at the highest level, for the members 
of this Commission in particular, but all Members of Congress, 
I think, for them in their interactions with Chinese Government 
members, parliamentarians, etc.
    It is all right to be critical. It is all right to be 
critical and then, on the other hand, to be supportive of 
engagement. But we should not risk going too far the other way.
    Ms. Payt. Yes. I agree, Raj.
    Mr. Wolf. On behalf of the chairman and co-chairman, and I 
think on behalf of all the commissioners, we appreciate your 
coming here, especially those of you who came from out of town. 
It shows a deep and important commitment that all of the 
members of the Commission share.
    We hope this will be the first of regular open forums like 
this. We are glad that the five of you came. Next time, we hope 
to see twice as many, and twice as many after that, as we try 
to hear from as many voices as possible in the communities that 
are interested in the issues of human rights and rule of law in 
China.
    [Whereupon, at 3:45 p.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          PREPARED STATEMENTS

                              ----------                              


                 Prepared Statement of G. Eugene Martin

                             march 4, 2002
                         toward a civil society
    As China moves toward more representative government under the rule 
of law, the development of civil society will be a critical building 
block. Allowing citizens to form and join groups which foster common 
goals of society while furthering their own interests will advance 
human rights and democracy by providing a shock absorbing cushion 
between government and individuals.
    Civil society can be defined in part as institutions formed by 
citizens individually or collectively apart from the State or party 
apparatus. The institutions' or organizations' primary goal would be to 
serve the goals or interests of their members. The groups could be 
oriented toward social goals, services, religious pursuits, or academic 
ends. Individuals would have a sense of belonging to a group or body 
with shared ideals and objectives, thus reducing alienation and 
dissention.
    The problem in China is the government sees such organizations as 
potential rival power centers, competing ideological or philosophical 
bodies, or socially destabilizing agents. China has a long history of 
secret societies and movements which became either criminal or 
political and, on occasion, succeeded in overthrowing the dynastic 
government. One need only look at the Taiping Rebellion or Sun Yat-
sen's Tongmenghui movement. Given the increased availability of 
information and the speed of modern communication, organizations have 
enhanced means of connecting their members throughout the country. This 
in part is why the Chinese government has clamped down so hard on a 
number of groups, from the Falung Gong to independent labor unions and 
religious bodies, insisting on state/party control over all 
organizations.
    Non-governmental civil society organizations are, however, an 
important component in a nation's efforts to provide its citizens with 
the means to prosper, to meet society's needs, and advance national 
interests. Many countries have learned that an engaged, informed and 
active citizenry can complement the government's efforts to achieve 
common goals. During the first 30 years of the People's Republic, the 
Party insisted on controlling and dictating all activity, whether 
economic, political or social. Individuals had little if any private 
space in which to pursue their own interests or ideas. Then under Deng 
Xiaoping's economic reforms, China unleashed Chinese citizens' innate 
abilities and enthusiasm. The resulting transformation of China's 
economy also gave its citizens greater control over their private 
lives.
    As Chinese citizens gain more choices in their lives, there is a 
growing desire to protect and advance their individual and collective 
interests by associating with like-minded people. Professional, 
cultural, religious or social groupings advocate development of a 
transparent and consistent rule of law as well as greater ``political 
space'' to express their opinions and needs. These goals often parallel 
those advocated by the government and party; occasionally, they 
diverge. In most cases, those that differ from the state/party are not 
antithetical or threatening. Rather, they propose a different approach 
to problems based upon grass roots perspectives. Such diversity can 
only strengthen and stabilize China's society by giving citizens 
peaceful, lawful means to express their opinions and to work to advance 
them. While some groups undoubtedly oppose State or party policies, 
transparency, diversity and public discussion usually result in 
moderate policies toward common goals.
    Civil society is taking root in China. As economic reforms develop, 
the government finds it is unable to provide all its citizens' needs 
and expectations. The State Owned Enterprise (SOE) crisis, floating 
population, rural recession, urban dislocations cause problems the 
government can not resolve. A number of non-governmental organizations 
(NGO's) have been allowed, even encouraged, by the government, albeit 
under close state/party supervision and control. These deal with 
environmental, natural disaster, and poverty challenges. Other non-
governmental groups have stepped in to provide social services when the 
government cannot for financial or structural reasons. These include 
volunteer support in orphanages or elder homes, counseling to migrant 
and unemployed SOE workers, medical assistance in rural or migrant 
communities, and tutorial help to students. These services are 
desperately needed by the society in transition from a planned to a 
market economy and can be accomplished through private organizations. 
By allowing such groups to fill the void, the government is already 
fostering the beginnings of a civil society.
    The development of a broader civil society in China is an integral 
part of the advancement of the rule of law and human rights.
                                 ______
                                 

                   Prepared Statement of Erping Zhang

                             march 4, 2002
    Mr. Chairman, members of this Commission, ladies and gentlemen:
    Thank you for giving us this opportunity to speak on the flight of 
Falun Gong practitioners in China.
    As you may recall, the U.S. House and Senate unanimously passed 
concurrent resolutions in November 1999, condemning the People's 
Republic of China for its brutal persecution of Falun Gong 
practitioners. Some victims have also been invited to testify their 
stories before the Congress. We are grateful for the support the US 
Congress has shown us during this difficult time.
    We are, however, sad to report that in the year 2002, the 
repression has only worsened. At last count, it has been confirmed that 
375 practitioners have died in police custody since Falun Gong was 
banned in China in July 1999, while the unofficial report is over 1,600 
deaths. Chinese vice premier, Li Lanqing, said in a speech that in just 
three short months between July and October of 1999, over 35,000 people 
who appealed to the Beijing regime were arrested. According to human 
rights groups and media reports, at least 100,000 people have been sent 
to labor camps without a trial; some 600 people have been handed 
extended jail sentences up to 18 years; more than 1,000 have been sent 
to mental institutions where they are given forced injections and 
drugs.
    One harrowing case is that of Ms. Zhao Xin, a 32-year-old lecturer 
in economics at Beijing Business University. After she was rounded up 
in a park for doing her exercises with her friends, police beat her so 
viciously that they crushed three of the vertebrae in her spine. She 
was paralyzed from the neck down, and her vocal cords were damaged 
during surgery so she could no longer speak. Later, she died, and the 
police tried to interrupt her funeral procession organized by her 
university colleagues and students. We can imagine the despair of her 
family--all their efforts to appeal to the courts or to get some 
explanation from the authorities about how their daughter could have 
been treated in this way have been summarily dismissed.
    Su Gang, a young software engineer from Shandong Province was 
injected with nerve-damaging drugs while he was kept in a mental 
hospital. Within a week, this healthy man became extremely weak and his 
motor functions were severely compromised. He was released only because 
a family member went on a hunger strike on his behalf, but it was too 
late--he died shortly thereafter.
    For every case that we know about, there are many, many more, and 
there are cases of discrimination and harassment that, while less 
severe than torture, have nonetheless wreaked havoc with people's 
lives. Thousands upon thousands of practitioners have lost their jobs, 
schools, pensions, and even their homes.
    Unlike in the U.S., Chinese citizens cannot just change jobs as 
they wish, so many families have become destitute and must rely on the 
kindness of friends and other practitioners. In some towns, corrupt 
local police are demanding stiff ``fines'' before they release Falun 
Gong practitioners from detention, and very often the amount is more 
than the life savings of entire families.
    The list of abuses continues to grow. But counter to the Chinese 
Government's expectations, Falun Gong practitioners are going stronger 
in their nonviolent struggle for freedoms. If there is one thing that 
the world is beginning to see is the sheer perseverance of the Falun 
Gong practitioners in China. They know that their cause is just.
    As a spiritual practice with ancient cultural roots, Falun Gong is 
based on undeniably good and universal principles of Truthfulness, 
Benevolence, and Forbearance. In addition to the health benefits, Falun 
Gong has guided people to achieve greater inner peace and wisdom. Over 
the past 2 years, the practice has helped people develop a strength of 
character that is not commonly seen.
    With all the beatings and mistreatment, the practitioners in China 
have not retaliated and, in many instances, they are turning the other 
cheek. They are forbearing, and they have chosen to use only peaceful, 
non-violent means to appeal. People sometimes ask why the practitioners 
in China don't just denounce Falun Gong, and then practice it secretly 
anyway. For many millions, the reason is simple--such an action would 
be a lie and a betrayal of their deepest convictions. These are people 
who don't just pay lip service to their integrity--they live it.
    Given the escalating persecution against other spiritual and 
religious faiths in China, Rabbi David Saperstein, former Chair of the 
U.S. Commission on International Religious Freedom has said ``Falun 
Gong has almost become the symbol of religious freedom more broadly.'' 
These practitioners are showing the people of China that freedom of 
belief is so utterly basic to almost every other freedom. No matter 
what your faith may or may not be, what we as human beings believe in 
our souls must ultimately arise from free will. History tells us that 
anyone who tries to dictate otherwise is ultimately not fighting on the 
right side.
    Falun Gong is not a China issue, but an international matter. 
Recently, groups of Western Falun Gong practitioners throughout the 
world went to Tiananmen Square in Beijing to peacefully appeal to the 
Chinese regime for stopping the killing and lifting the ban. Over 30 of 
them were Americans. For their peaceful appeal, they were harshly 
treated and physically abused before being deported. Many had their 
personal belongings taken away by police such as credit cards, cash, 
cameras, etc. It is hard to imagine that this apolitical meditation is 
being peacefully practiced in over 40 countries, and yet it is brutally 
suppressed in its homeland.
    While China is stepping up its domestic efforts in persecuting 
Falun Gong practitioners, its propaganda and harassment against Falun 
Gong have also arrived overseas, especially here in America. The Wall 
Street Journal reported (Feb. 21, 2002):

         The approach, made variously by letter, phone call or personal 
        visit from a Chinese official based at China's Washington 
        Embassy or one of its numerous consulates, tends to combine 
        gross disinformation with scare tactics and, in some cases, 
        slyly implied diplomatic and commercial pressure.
         Typical is the experience of Santee, Calif., a city of 58,000 
        on the outskirts of San Diego County. A little over a year ago, 
        Mayor Randy Voepel received a letter from the newly arrived 
        Chinese consul general in Los Angeles, Lan Lijun. Mr. Lan's 
        letter began with a cheery greeting and rolled right along to 
        describe the Falun Gong movement as a ``doomsday'' cult that 
        creates ``a panic atmosphere'' and if left unchecked in America 
        could end up ``jeopardizing your social stability.'' Noting 
        that China would ``like to establish and develop friendly 
        relations with your city''--and implying this would require 
        complying with China's wishes--Mr. Lan's letter went on to urge 
        that ``no recognition and support in any form should be given 
        to the Falun Gong'' and urged banning them from registration as 
        any kind of official organization. Not so typical was Mr. 
        Voepel's reaction. A Vietnam War veteran, he wrote back: ``Your 
        letter personally chilled me to my bones. I was shocked that a 
        Communist Nation would go to this amount of trouble to suppress 
        what is routinely accepted in this country .  .  . I have the 
        greatest respect for the Chinese people in your country and 
        everywhere in the world, but must be honest in my concern for 
        the suppression of human rights by your government as evidenced 
        by your request.
         Mr. Voepel then issued a mayoral proclamation commending the 
        Falun Gong.

    Such blunt assault on the civil liberty of US citizens and 
intervention on American internal affairs are in direct violation of 
the US and international laws. Last month, He Yafei, deputy chief of 
mission of the Chinese Embassy visited Mr. Rocky Anderson, Mayor of 
Salt Lake City, who issued a proclamation last year honoring Falun 
Gong. In a ``security briefing'' for Mr. Anderson, He attempted to 
label Falun Gong as a ``terrorist group,'' as Falun Gong was one of 
many groups that had applied for permission to hold a peaceful 
demonstration during the Olympics. The Wall Street Journal reported: 
``Mr. Anderson let the demonstration go ahead, on Feb. 7. It was so 
peaceful, says a mayoral spokesman,
    that the sole problem with the Falun Gong was that 'they walked 
very slow.''' We appeal to this Congressional-Executive Commission on 
China to investigate and stop such harassment by the Chinese Government 
on the U.S. soil.
    We are hoping to work with this Commission to put in place concrete 
and specific measures to (1) pressure the Beijing regime to release 
those detained and imprisoned Falun Gong practitioners; (2) help those 
imprisoned Falun Gong practitioners seeking medical treatment abroad, 
due to maltreatment and harsh conditions in prison; (3) hold hearings 
for victims of Falun Gong practitioners so that this largest modern-day 
atrocity in China is highlighted; (4) identify those Chinese officials 
who have engaged in human rights abuses and ban them from entering the 
U.S.; (5) use every opportunity and tool this Commission has to call 
for an end of Beijing's suppression of Falun Gong.
    Thank you for your consideration, and I will be pleased to take 
your questions.
                                 ______
                                 

                   Prepared Statement of Raj Purohit

                             march 4, 2002
    The Lawyers Committee is an independent non-governmental human 
rights organization. We aim to hold governments accountable to the 
international standards of human rights, and work to develop stronger 
models of corporate accountability in the global market place.
    The Lawyers Committee considers that human rights conditions in 
China continue to be an issue of deep concern.
    Over the past year, China has secured a prominent position in the 
international arena, symbolized by its admission to the WTO, its 
successful bid to host the 2008 Olympics and the recent visit of 
President Bush. However, this has not been accompanied by a parallel 
improvement in human rights. Instead, government statements about 
upholding ``the rule of law'' have frequently veiled harsh political 
repression. This is most poignantly illustrated by the ``Strike Hard'' 
campaign, which resulted in scores of executions after procedural and 
substantive abuses of criminal law.
    Moreover, in the aftermath of the September 11 tragedy in New York, 
anti-terrorist rhetoric has been misused to legitimize harsh crack-
downs in Tibet and Xinjiang province, and illegitimate censorship of 
all forms of media, including the internet.\1\
---------------------------------------------------------------------------
    \1\ For instance, the NGO Human Rights in China reports the recent 
arrest and detention, on January 24, 2002, of Wang Daqi, Professor of 
Construction of Hefei Industrial University and editor of Ecology 
magazine. Since the 1989 Bejing crackdown, Professor Wang had published 
articles about social and human rights issues. The Chinese authorities 
previously attempted to prevent Prof. Wang from publishing these 
articles. At http://iso.hrichina.org:8151/iso/news--item.adp?news--
id=691.
---------------------------------------------------------------------------
    An abundance of NGO-reports, as well as the annual evaluations of 
China's human rights practices by the State Department's Bureau of 
Democracy, Human Rights and Labor, narrate these and other violations 
of the most fundamental human rights. They describe crackdowns on 
dissidents, cases of arbitrary arrest and detention of suspects, 
torture, forced prison labor, and abusive labor conditions. Freedom of 
expression continues to be restricted, and voices that endeavor to draw 
attention to pressing issues of national and global concern are 
frequently violently silenced.
    The Lawyers Committee has welcomed positive developments in the 
Chinese legal system over the past few decades. However, continuing 
violations illustrate that a strong legislative framework cannot by 
itself secure the rule of law. It is necessary to enforce this legal 
framework in practice. To that end, China needs to build a strong, 
independent legal profession.
                         persecution of lawyers
    In this submission, the Lawyers Committee wishes to highlight its 
concern about the continuing persecution, threats and harassment 
suffered by lawyers who confront common injustices. In 1998 the Lawyers 
Committee addressed this and related issues in a report on ``Lawyers in 
China: Obstacles to Independence and the Defense of Rights.'' \2\ 
Unfortunately, many of the problems described in that report continue 
to be matters of concern.
---------------------------------------------------------------------------
    \2\ 1998, New York. A copies of this report are available upon 
request.
---------------------------------------------------------------------------
    The report includes an analysis of the 1996 Lawyers Law, which, in 
general terms, regulates the legal profession.\3\ The Lawyers Law was 
inspired by, yet does not wholly encompass, the U.N. Basic Principles 
on the Role of Lawyers (1990).\4\ Nevertheless, the Law and the Basic 
Principles share the intention to protect lawyers from physical or 
other forms of abuse, and from interference when carrying out their 
responsibilities in accordance with the law.\5\ However, despite this 
strong legal framework, there are recurring reports of intimidation and 
threats targeted at legal practitioners. The case of Zhou Litai 
illustrates this problem:
---------------------------------------------------------------------------
    \3\ Lawyers Law of the People's Republic of China, adopted May 15, 
1996, effective January 1, 1997. The Lawyers Law is available online at 
http://www.qis.net/chinalaw/prclaw10.htm.
    \4\ Adopted by the Eighth United Nations Congress on the Prevention 
of Crime and Treatment of Offenders, held in Havana, Cuba, August-
September 1990. The Basic Principles enshrine the rights and 
responsibilities of lawyers around the world, and also lay out states' 
obligations to ensure effective and equal access to lawyers for their 
residents.
    \5\ Article 3 of the Lawyers Law, supra note 6, declares that 
lawful legal practice shall be protected by the law. Article 32 
provides that the personal rights of a lawyer will be inviolable in the 
course of his or her legal practice. The Basic Principles, supra note 
7, are more detailed, yet provide essentially similar protection in 
artt. 16-22.
---------------------------------------------------------------------------
                               zhou litai
    Since 1996, Zhou Litai has helped workers in the Shenzhen area to 
obtain their rights in legal battles against local government 
authorities, foreign investors and company owners in a series of cases 
that have drawn public attention. Over the years, he has represented 
more than 800 factory workers in labor disputes and struggles for 
compensation for grave work injuries. Many of his cases involved legal 
action against the Labor Bureau or the social security department. In 
August last year, he represented 56 women workers in a South Korean-
owned wig factory in Shenzhen, who had been the victim of illegal body 
searches. The company chose to settle the case out-of-court.
    On December 19, 2001 the Longgang District Bureau of Justice in 
Shenzhen ordered Mr. Zhou to close his legal practice.\6\ The order, 
which apparently contravenes both international law and domestic 
regulations, seems to be an illegitimate retaliation for the negative 
attention that Mr. Zhou's successful litigation practice has drawn to 
the Shenzhen region.
---------------------------------------------------------------------------
    \6\ This matter was also covered in a New York Times article on 
January 3, 2002, which can be found online at http://
college4.nytimes.com/guests/articles/2002/01/03/894481.xml.
---------------------------------------------------------------------------
    As noted above, the Chinese Lawyers Law expressly protects lawyers 
from such ungrounded interference and intimidation.\7\ Such 
interference is also outlawed in international human rights standards.
---------------------------------------------------------------------------
    \7\ See supra note 3.
---------------------------------------------------------------------------
    Specifically, the Lawyers Law states in its Article 12 that ``legal 
practice shall not be subject to geographical limitation.'' This means 
that a lawyer licensed in one region of China may practice in another 
without obstruction from the local authorities. Mr. Zhou, who is in the 
possession of a Chongqing license, is entitled to practice anywhere in 
China. The District Bureau has no power under the law to obstruct Mr. 
Zhou's practice of law.
    Mr. Zhou Litai has filed suit against the District Bureau of 
Justice with the Longgang District People's Court, to contest the 
legitimacy of the order.\8\ In this respect it should be noted that the 
Shenzhen local bureau of justice has previously attempted to confiscate 
Mr. Zhou's license, shortly after he started his practice in 1997. At 
that time, the bureau returned the license to Mr. Zhou after he 
initiated legal proceedings.
---------------------------------------------------------------------------
    \8\ Report posted by the China Information Center on January 16, 
2002:http://www.china.org.cn/english/2002/Jan/25353.htm.
---------------------------------------------------------------------------
    The Lawyers Committee believes that the case of Mr. Zhou deserves 
particular consideration in the light of China's recent accession to 
the WTO, and the obligations that membership of this organization 
entails with respect to the elimination of barriers to trade. It should 
be considered that the continuing threats and harassment directed 
against Mr. Zhou, and in particular the possible withdrawal of his 
license to practice, are wholly inconsistent with China's obligations 
under the WTO, and set a most disturbing precedent.
    Mr. Zhou's activities show that the Chinese people increasingly 
turn to the legal system for protection. This commendable development 
needs to be protected and stimulated. Working toward the development of 
the rule of law, it is of key importance that China continues to build 
and enforce its legal system, to guarantee a sustainable protection of 
basic human rights, as well as the interests of foreign investors.
    The legal system will only be as strong as the professionals who 
work within it.
    China should adhere to its own laws, and to international 
standards, upholding the independence of lawyers, and their protection 
from persecution.
                            recommendations
    1. The Lawyers Committee believes that it is important to recognize 
the educative, guiding role that can be played by foreign governments, 
human rights groups, law schools, bar associations and other 
international actors in the development of law in China. Underlining 
the position of China as a prominent member of the international 
community, efforts should be made to ensure the continued involvement 
of these foreign actors.
    2. The Chinese government should fully comply with the provisions 
of the U.N. Basic Principles on the Role of Lawyers, and to revise 
those aspects of Chinese law that restrict the ability of lawyers to 
freely represent their clients and to organize independent bar 
associations.
    3. Lawyers should be free to carry out their professional duties 
without official interference, restrictions, threats or intimidation.
    4. Particular assistance should be provided to the training of 
lawyers, both in China and abroad. Training programs should be designed 
to fit with China's particular conditions and needs. The exchange and 
sharing of relevant information should be stimulated. Assistance should 
also be provided to China's law schools for the design of courses and 
teaching methods.
    5. Bar associations and the Chinese Ministry of Justice should be 
engaged to create mechanisms that ensure the adequate protection of 
legal practitioners.
    6. At the same time, to promote high professional standards, these 
institutions should be encouraged to publicize and facilitate the 
rights of clients to bring malpractice suits, in the belief that this 
will encourage lawyers to seriously consider their professional 
responsibilities.
    7. Assistance should be provided in the creation of a legal aid 
system, by providing know-how and financial support where appropriate.
    8. Assistance should be provided to train and sensitize the 
relevant branches of government to the importance of the independent 
role of the lawyer within the legal system.
                                 ______
                                 

                   Prepared Statement of Wenzhuo Hou

                             march 4, 2002
    Ladies and Gentlemen:
    I am going to talk here today about a kind of human rights 
violation which affects the largest number of Chinese people, and yet 
has hardly gained much attention from either the international 
community or Chinese policymakers--that is the human rights violation 
against peasants and rural migrant workers, who number over 1 billion 
people and make up more than 70 percent of China's population.
    When we talk about human rights, we often talk about the rights of 
democracy activists, the rights to free speech, free association, 
sometimes about the rights of workers and workers union. We hardly ever 
hear about anything like the ``human rights of peasants''. The peasant 
problem is widely understood as the fundamental political problem in 
China. But, few think that they are suffering from the most severe and 
systematic human rights violation, and deprivation of equal 
citizenship.
    The Chinese Household Registration System (ie. Hukou), created in 
late 1950's, established a rural-urban dichotomy system. The Chinese 
citizens are classified into two categories--``urban Hukou'' vs. 
``rural Hukou''. These two kinds of Hukous have divided Chinese 
citizens into two worlds: the urban first world and the rural Third 
World.
    I have recently been undertaking research making a comparison 
between the discrimination experienced by the Chinese peasants and 
rural migrants versus those experienced by black Bantu people under the 
Apartheid regime of South Africa. Despite the huge political, legal and 
cultural differences, there are astonishing similarities found. 
Population registration laws, ``Population Registration Act'' in South 
African, like the ``Household Registration Regulation'' in China, 
established the cornerstone for a discriminatory and unjust system 
where one higher categorized group dominated the rest. In South Africa, 
black and colored people were deprived of or restricted in their voting 
rights. In China, according to the Election Law, the peasants only have 
one fourth or one eighth of the representative rights that urban 
citizens have. The largest social group in China, the peasants have no 
national or regional representative associations (while we do have all 
kinds of union for various social classes/groups), which directly 
contributed to their neglected/ marginalized political situation. The 
peasants are also deprived of equal opportunity in access to housing, 
primary education, higher education, employment, medical care, social 
security and so on. Black people are regularly checked for their passes 
in South Africa, while in China, rural migrants are checked for their 
``temporary residential card'', ``work permit'', etc., and often are 
arbitrarily sent to Custody and Repatriation centers. Even worse than 
what is experienced by black people, for the Chinese peasants, their 
minimal rights to land, rights of property and products are often 
treaded upon. They not only have to pay a disproportionally heavy tax 
to the State and collective, but also are subjected to numerous 
arbitrary fines and fees. According to a book recently published by Li 
Changping, an former county leader, the rural government authorities 
have evolved into a group who live on their high interest loans to 
peasants. This means, the corruption of rural government has 
transformed the rural leaders into a group of landlord exploiting 
peasants but in the name of the State, the central government.
    We have known that rural women in China have the highest suicidal 
rate in the world. We have seen lots of reports about children from 
rural families who were not able to go to school, and sometimes had to 
do dirty, unhealthy and even dangerous jobs. As we know, school 
children in Jiangxi were killed while being forced to produce fireworks 
for a living. In Qinghai province, teenager boys were tricked to work 
in gold mines where they were treated as slaves, and even worse than 
that. Such horrific stories happen all over China and very often. In a 
broader sense, the whole Chinese peasants and rural migrants are all 
virtual slaves of the state. Their rights and properties are often 
abused by various governments at will, and their liberties are often 
deprived arbitrarily. In the case of industrial or traffic deaths, the 
monetary compensation they get is even less than half of an urban-Hukou 
person's, if they get anything at all. Yet, there are always 
policymakers justifying their policies, saying that peasants are 
inferior, uneducated and therefore have to make sacrifices to the 
country, and deserve how they are treated!
    We should realize that the discrimination and exploitation of 
peasants and migrants are in essence enforced through government 
policies. The Hukou system and its connected policies are at its core. 
But, these policies have been well incorporated into all kinds of 
policies affecting normal citizens life, and have evolved into an 
ideology justifying the mistreatment of peasants, and it has already 
had the effect of fostering a widespread discriminatory attitude toward 
peasants in the whole society.
    If we truly mean to talk about human rights today, the human rights 
of peasants and migrants are too huge to ignore. If we do not want to 
see impoverished and desperate peasants start another violent peasant 
revolution as happened so many times in Chinese history, we must 
address the issues of human rights and social justice for peasants now. 
If we acknowledge this discrimination against peasants is 
comprehensive, multi-faceted and institutionalized, we should realize 
that it is not enough to address the problem in the classical human 
rights approach. It calls for a more systematic approach. Therefore, I 
advocate the ``right of peasants and rural migrants'' to be singled out 
as a major category of human rights and seriously studied as we do to 
woman's rights, children's rights, labor rights and so on.
    Therefore, I call upon the international community to examine and 
monitor the human rights of peasants and migrant workers in China. I 
recommend the following action be taken:

    1. To adopt a ``categorical/identity discrimination'' approach in 
monitoring the human rights situations of peasants/migrants, that is: a 
discrimination based on their immutable characteristics (descent)--the 
Hukou which is imposed on them by the state; by such an approach, we 
can address the problem in a comprehensive way.
    2. To facilitate political and legal institutional reform based on 
Hukou; to investigate the whole implication of Hukou in Chinese 
citizen's rights and equality; to support the on-going reform of Hukou, 
provided that this regime is not replaced by another kind of repressive 
and discriminating registration system.
    3. To single out discrimination and human rights violations against 
peasants/ migrants when documenting human rights in China, such as in 
the US State Department Report.
    4. To investigate the conflict between peasants and the governments 
in the vast countryside of China; to study the growing discontent of 
peasants from a human rights perspectives; to raise awareness among 
peasants about their human rights; to support local community democracy 
and self-governing initiatives, particularly in rural areas and urban 
migrants neighborhood.
    5. To address the agricultural problem in China, to investigate the 
Chinese rural taxation and debts problem, to facilitate the reform of 
rural government, which has become increasingly rent seeking and 
exploitative in nature.
    6. To facilitate capacity-building in rural China, to support 
further training of grassroots social activists particularly those 
representing rural peasants and migrant workers; activists working at 
that level have the least chance of getting any training, or chance to 
speak, yet, they can be greatly empowered if given such opportunities.
    7. To review the impact of WTO on Chinese peasants; noting the 
WTO's potential devastating effect on peasant's livelihood, which may 
unleash social unrest from rural China to the rest, it is of particular 
immediacy and importance to address the human rights concerns of 
peasants.
    8. To support academic research and study on the peasants and 
migrants human rights.

    When the exploitation of peasants and the corruption of rural 
governments in China become international human rights concern, we can 
have some hope that the misery of Chinese peasants can be ameliorated, 
and their equal rights as citizens can be protected.
    To bring the human rights of peasants into the forefront of human 
rights discussion would greatly empower the peasant/migrants, and 
enable them to have access to legal protection and encourage the 
international community to voice out their concerns. It will make all 
these human rights arguments more relevant to the most powerless people 
in China, who are otherwise totally reliant upon the mercy of 
authorities, and who would otherwise view ``human rights'' talk as 
totally irrelevant to their life, and be unwilling to participate. I 
believe introducing the issue of human rights for peasants/migrants 
would broaden the dimension of human rights dialog, bringing new force, 
gaining more public support, and therefore would give tremendous 
support to the democracy movement in China.

                       SUBMISSION FOR THE RECORD

                              ----------                              


  Prepared Statement of Wenhe Lu & Ciping Huang, board members of the 
 Independent Federation of Chinese Students and Scholars in the United 
                                 States

                             march 4, 2002

               China's Problem: A Lack of Respect for Law

    Dear members and staff of the Congressional-Executive Commission on 
China,
    My name is Wen-he Lu. I am a board member of the Independent 
Federation of Chinese Students and Scholars in the United States. IFCSS 
is a non-profit organization with members all over the United States. 
From the inception of IFCSS, we have been promoting human rights and 
democracy in China, and the interests of Chinese students and scholars 
in the US. I am here to speak for Ms. Huang Ci-ping, who could not come 
to Washington DC today.
    After the US gave China PNTR and China joined the WTO, direct 
contact between citizens in the United States and China has been 
increasing. All Americans who are involved with China should be made 
aware that China's general problem now is a lack of respect for law. In 
China, there are many laws on paper but not in practice. China signed 
the United Nations' International Covenants to respect its citizens' 
human rights, but the Chinese government is in violation of that many 
times over. There are numerous reports about human rights violations in 
China, especially that of religious persecution, particularly toward 
FaLunGong and underground Christian church members.
    For example, the families of victims from the Tiananmen Massacre on 
June 4, 1989 are still watched today, and as recently as March 2, their 
telephones were cut at the will of the government. Their mail is 
searched so that any charitable donations from abroad are forced to 
take a secret way to get into their hands. We want the Congressional 
Executive Commission on China to urge China to respect the law of mail 
correspondence and to let donations go through to the victims' families 
of the June 4 massacre. Donations to June 4 victim families were also 
intercepted in the name of China's national security in 1998, and funds 
from Germany are still frozen in the bank by the China National 
Security Bureau. We urge the Congressional Executive Commission on 
China to put pressure on China to let the victim families of the June 
4th Massacre receive the humanitarian donations from abroad, which were 
donated in good faith by ordinary people in the United States and other 
countries.
    During the PNTR debate in the year 2000, many argued that China's 
human rights situation would be improved by the granting of PNTR. 
Contrary to this argument, PNTR has allowed the Chinese government to 
feel free from international pressure, especially from economic 
sanctions. The human rights situation has worsened considerably after 
China got PNTR and WTO. Recent arrests of FaLunGong followers in 
Tiananmen Square are examples.
    China now has joined the WTO. We all know that this will impose 
international standards on the daily business practice in China. We 
want to remind the Congressional Executive Commission on China that 
although the current court system is trying to accommodate this 
reality, there is still a long way to go before China's current legal 
system is in full accordance with international standards. There are 
numerous reported and anecdotal pieces of evidence that corruption is 
widespread inside China's court system. Judges and court personnel need 
to be bribed even to move cases forward.
    There are laws in China against child labor; however, many workers 
in Guangdong and Guangxi provinces are under age. In reality, the 
Chinese workers have no rights to organize their own workers' unions or 
to join in labor movements.
    We hope the Commission will be helpful to force the respect of 
labor laws in China. Although cheap labor has been one of the big lures 
for the multi-national companies that promoted and lobbied for PNTR, we 
want to remind the Commission that not only have illegal labor 
practices in China taken away Chinese workers' rights, but they have 
also caused unfair competition for American workers. Because the USA 
has not yet climbed out of the recent recession, it is now more 
important than ever to protect the rights of the American workers. We 
want to say that taking advantage of the Chinese workers' rights is 
ultimately hurting the American workers as well. Furthermore, the abuse 
of human rights in China infects the rights of all the citizens in the 
world.
    China has laws on accounting practices. But what ENRON did is 
merely a daily practice in China. Recently, the Minshen Bank, the only 
huge private bank in China, is reported to have a huge corruption case. 
Similar cases break out every day in China in the financial sector. The 
financial reports of some stock companies in the Shanghai Exchange have 
been found to be fraudulent. The financial reporting is so unreliable 
that Primer Zhu Rongji recently felt compelled to emphasize that people 
in the accounting profession must not book false numbers.
    There are Environmental laws in China too. However, short-term 
business interests usually prevail over the environmental consideration 
and laws. There are lawsuits in Henan and Anhui provinces where whole 
villages are suing companies close by for causing health damage by 
neglecting the water pollution.
    In conclusion, the Chinese government has not enough respect for 
the law in human rights, for preserving confidentiality in mail 
correspondence, for environmental protection, for the court system and 
for business practices. It is our hope that this committee will be able 
to learn the reality in China and play a vital function to monitor the 
human rights condition in China and to play a vital role in putting 
pressure on the Chinese government to respect the law. If that could be 
done, then we will not have to regret that the economic interests of 
the United States have overcome the essential human values that we all 
cherish.


</pre></body></html>
